No:

20-955
IN THE

SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,
-VSETHICON INC, et al,
RESPONDENT,

PETITIONER’S PRO SE
PETITION FOR REHEARING
NOW COMES, DELVA NEWHOUSE, Petitioner presently filing in Pro Se in her
eccentricity as a Whistleblower and State Licensed Medical Expert in the Medical Field,
Who hereby moves all the Honorable United States Supreme Court Justices, pursuant to
United States Supreme Court Rule 44 et seq, by timely filing Petitioner’s Pro Se Petition
For Rehearing within 25-Days of the ad hoc Order dated MARCH 22.2021. denying the
overlooked meritorious Certiorari, based upon any/all of the following:
(l) On the Certiorari bar to be considered for Rehearing is based upon the fact.
This Petitioner claims that any/all of the claims/grounds setforth in this Petition For
Rehearing are limited too: (A) intervening circumstances of substantial or controlling
effect or to other substantial grounds not previously presented to the U.S Supreme Court
to secure or maintain uniformity of prior U.S. Supreme Court decisions; (B) The
1

proceeding involves Federal Questions of Law of exceptional public importance.' (C) The
Lower Federal Court Judges/Panel decisions conflicts with numerous clearly established
decisions of the United States Supreme Court and/or prior decision by other U.S. Circuit
Court of Appeals; (D) and that consideration by the Full Court is therefore necessary to
secure and maintain uniformity of the Court’s prior decisions that have addressed the
same Federal Questions of Law clearly established under law of the case doctrine by this
Honorable U.S. Supreme Court; (E) and reversal when Fraud Upon the Court has been
knowingly committed intentionally and in bad faith by Corporate Attorneys currently
litigating pending Nationwide Polypropylene Hernia Mesh Lawsuits(ie, adulterated
medical devise), in order, to obtain wrongful judgment entries for unlawful Corporate
Financial Gain, instead of banning/recalling any/all adulterated medical devises(ie,
Hernia Mesh manufactured/distributed with Polyproplylene). See McCARTHY V
ARNDSTEIN. 266 U.S. 34; 45 Set 16; 69 LEd 158(1924); JONES V OPELIKA. 316 U.S.
584; 62 Set 1231; 86 LEd2d 1691(1942); PFISTER V NORTHERN ILL. FINANCE CORP
317 U.S. 144; 63 Set '133; 87 Led 146(1942); MURDOCK V PENNSYLVANIA. 319 U.S.
105; 63 Set 870; 87 LEd 1292(1943); RICE V SIOUX CITY MEMORIAL PARK
CEMETARY INC.. 349 U.S. 70; 75 Set 614; 99 LEd2d 897(1955); REID V COVERT. 354
U.S. l; 77 Set 1222; 1 LEd2d 1148(1957); LADNER V U.S.. 358 U.S. 169; 79 Set 209; 3
LEd2d 199(1958); KOLOD V U.S.. 390 U.S. 136; 88 Set 752; 19 LEd2d 962(1968); and
HIBBS V WINN. 542 U.S. 88; 124 Set 2276; 159 LEd2d 172(2004).
(2) This Petitioner claims to all the Honorable United States Supreme Court
Justices that she has literally presented overwhelming proof to both the U.S. District
Court and to the U.S. Fourth Circuit Court of Appeals(that never addressed the issue
2

with the Respondent Ethicon very own U.S. Patents and FDA Premarket 50l(K)
Applications for their dangerous Adulterated Hernia/Suture Products that is made from
their non-dissolving POLYPROPYLENE(ie, Common Plastic) and that the Respondents
Ethicon simply coated with dissolving resins. That the human body eventually rejects,
causes severe infections, and adhers to internal organ resulting in excruciating death.
That Fraud Upon the Court has been systematically knowingly and intentionally
committed in bad faith by the Respondents Ethicon and Johnson & Johnson Corporate
Attorneys on the case at bar to obtain a unlawful/wrongful judgment entry for dismissal
for financial gain,' and on ALL pending Federal Class Action Hernia Mesh Lawsuits
currently pending Nationwide by knowingly falsely asserting in all the Respondent
Ethicon Corporate Attorney Litigation that all their Hernia Mesh and Suture Products
are safe, and that they are not made from POLYPROPYLENE(ie, Common Plastic) that
was never intended to be implanted in the human body, and is literally reflected on all of
the Respondents Ethicon( and Johnson & Johnson) FDA Premarket 50l(K) Applications
to produce, sell and distribute Respondents Ethicon Polypropylene Hernia Mesh and
Suture Products. (See DC ECF#136). See Petitioner’s Appendix L
(3) Further, That this Petitioner was/is the Original Party to this Complaint For
Civil Action as well as Administrator, Executor, and Sole Beneficiary with no creditors on
the Estate of Petitioner William Perry Newhouse III. That concurs with the Respondents
Ethicon and Johnson & Johnson Corporate Attorneys that Petitioner, and this
Petitioner’s Son died on NOVEMBER 16.2018 at 5:45 PM from Respondents ETHICON
well-known defective, deadly, and dangerous Polypropylene hernia mesh and sutures
products, and the Petitioner(s) Expert Witnesses would have testify under oath to the
3

Medical Records Records that the Respondents ETHICON Corporate Attorneys already
obtained from said Medical Doctors/Hospitals, and were already served copies of in. (See
DC ECF #2, #17, and #136).
(4) Further, These Petitioners timely filed numerous pleadings/objections that the
Respondents ETHICON Corporate Attorneys was intentionally wasting precious judicial
resources by seeking delays, excuses for over three years, and circled like vultures for the
remaining time in the Original Petitioner’s life until he died by ETHICON Corporate
Attorneys filing the same inapplicable redundant defenses(ie, failure to state a claim, ect)
over and over again. When ALL of the Respondents ETHICON Corporate Attorneys knew
fully well that ETHICON negligently continued to manufacture defective, and
unreasonably dangerous Polypropylene(ie, COMMON PLASTIC) hernia surgical mesh;
and that Respondents ETHICON and their Corporate Attorneys did not provide doctors,
surgeons, patients with reasonably sufficient technical information about the risks of its
product which caused Petitioner’s injury, and the unambiguous literal fact. That all of the
Respondents ETHICON Polypropylene(ie, COMMON PLASTIC) non-disolving surgical
hernia mesh and sutures products(ie, whether its cut in the shape of a square, circle,
triangle, packaged/repackaged, vaginial mesh, and they name/rename it whatever they
want on advise of the Respondents ETHICON Corporate Attorneys to unlawfully
financially profit by charging/defending) is still Polypropylene; and that Polypropylene(ie,
COMMON PLASTIC) was never intended to be implanted into the human body. See
Sanchez v. Boston Scientific Corp,. 38 F. Supp. 3d 727 - Dist. Court, SD West Virginia
2014; Hendricks v. Boston Scientific Corp.. 51 F. Supp. 3d 638 ■ Dist. Court, SD West
Virginia 2014.
4

(5) In MILLIKEN V MEYER. 311 U.S. 457, 61 Set 339, 85 LEd2d 278(1940), The
U.S. Supreme Court clearly established that, “A void judgment which lacks jurisdiction
over the parties or the subject matter, or lacks inherent power to enter the particular
judgment, nr an order procured by Fraud, ran be attacked at any time, in anv enurt.
either directly or collaterally provided that the party ia properly served before the court”.
See DAVIDSON CHEVROLET INC. V CITY AND COUNTY OF DENVER. 330 P.2d
1116(1958); STEINFELD V HODDICK 513 U.S. 809(1994).
(6) The U.S. Supreme Court in TYLER V MAGWIRE. 84 U.S. 253 (1872), has long
clearly established and held, that: "Repeated decisions of this court have established the
rule that a final judgment or decree of this court is conclusive upon the parties, and that
it cannot be reexamined at a subsequent term, except in cases offraud, as there is no act
of Congress which confers any such authority." Because, No fraud is more odious than an
attempt to subvert the administration of justice. The court is unanimous in condemning
the transaction disclosed by this record. Our problem is how best the wrong should be
righted and the wrongdoers pursued”.
(7) In Hazel-Atlas Glass Co. v Hartford'Empire Co.. 322 U.S. 238 (1944), The U.S.
Supreme Court on deciding a case of Fraud upon the Court committed by attorneys held,
that: “From the beginning, there has existed along aide the term rule a rule nf equity to
the effect that, under certain circumstances. one of which is ft fter-disenvereri fraud relief
will be granted against judgments regardless of the term of their entry” See Marine
Insurance Company of Alexandria v. Hodgson. 11 U.S. 332 (1813); Marshall v. Holmes
141 U.S. 589 (1891).

5

(10) The Respondent(s) ETHICON Johnson & Johnson has never been ordered by
any Federal Court or advised by their Corporate Attorneys to cease, desist, or be
criminally prosecuted for knowingly manufacturing POLYPROPYLENE (IE, Common
Plastic) hernia and vaginal mesh, and suture products that DOES NOT dissolve, and was
never intend to be implanted in the human body for financial gain, pursuant to 21 U.S.C.
351(f)(1)(B), in violation of the Federal Food, Drug, and Commerce Act(FDCA), 21 U.S.C.
331(a) and 333(a)(2) for their criminal wrongdoing for continuing to knowingly make, sell,
and peddle the defective and unreasonably dangerous polypropylene mesh and suture
products

as

other

Corporations/CEOS

have

been

criminally

charged

as

Corporations/CEOS for their criminal wrongdoing and/or defective products in the clearly
established cases entitled United States v. Curtiss-Wright Export Corp.. 299 US
304(1936); United States v. Dotterweich. 320 US 277(1943); Pennekamp v. Florida. 328
US 331(1946); Dennis v. United States. 341 US 494(1951); United States v. A & P
Trucking Co.. 358 US 121(1958); United States v. National Dairy Products Corp.. 372 US
29 (1963); United States v. General Motors Corp..384 U.S. 127 (1966); United States v.
International Minerals & Chemical Corp.. 402 US 558(1971); United States v. Park. 421
US 658(1975); Upjohn Co. v. United States. 449 US 383(1981); United States v. Halper.
490 US 435(1989). Also see US v. Automated Medical Laboratories. Inc.. 770 F. 2d
399(4th Circuit 1985); United States v. General Motors Corp.. Case L15-cv-073429(S.D.
N.Y.); U.S. v. Tanaka et al.. Court Docket No.: 16-cr-20810-GCS-EAS (E.D. Michigan).

6

(ll) In conclusion, This Petitioner claims that the herein pro se pleadings cannot
be held same standards as those drafted by attorney as held/ruled by the United States
Supreme Court in ERICKSON V PARDUS. 551 US 89, 94(2007); and accept must accept
Pro Se Litigants allegations as true, unless they are clearly irrational or wholly
incredible. DENTON V HERNANDEZ. 504 U.S. 25, 33 (1992) unless it appears 'beyond
doubt that the pro se litigant can prove no set of facts in support of his/her claim(s) which
would entitle him/her to relief.' CONLEY V GIBSON. 355 U. S. 41, 355 U. S. 45-46
(1957). Further, This Pro Se Plaintiff believes that this Honorable Court has a
responsibility, and legal duty to protect any and all of the accused constitutional and
statutory rights. See UNITED STATES V LEE. 106 US 196, 220(1882).

7

SUMMARY AND RELIEF
WHEREFORE, This Petitioner demands that the Honorable United States
Supreme Court Justices honors this Petitioner’s Petition For Rehearing(eg, Fraud Upon
the Court, and Adulterated Medical Devise). By issuing an Order GRANTING this
Petitioner’s Pro Se Petition For Rehearing(for Fraud and Adulterated Medical Devise).
Because the proceeding involves Federal Questions of Law of Significant, Exceptional and
Great Public Importance due to Hundreds of Hernia Mesh Lawsuits currently pending
Nationwide; That prior U.S. Appellate Courts Judge/Panel decisions conflicts with any/all
clearly established decisions of the United States Supreme Court and/or consideration by
the Full Court is therefore necessary to secure and maintain uniformity of numerous
clearly established decisions by the United States Supreme Court that have addressed
the same Federal Questions of Law regarding wrongful Judgment obtained by Fraud
Upon the Court, and Federal Laws that was neither honored/enforced by either the U.S.
District Court nor the U.S. Fourth Court of Appeals, as all circumstances should dictate
and Justice would so demand.

Date:
XC: Respondents Attorneys
File

PETITIONER IN PRO SE
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

8

No:

20-955
IN THE

SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,
-VSETHICON INC, et al,
RESPONDENT,

CERTIFICATE THAT REHEARING RELIEF LIMITED
SUBSTANTIAL CIRCUMSTANCES FOR CQNTROTJJNO EFFECT
As required by Supreme Court Rule 33.1(h) and Rule 44 et seq, I hereby certify
that this Petitioner claims that any/all of the claims/grounds setforth in this Petition For
Rehearing are limited too: (A) intervening circumstances of substantial or controlling
effect or to other substantial grounds not previously presented to the U.S Supreme Court
to secure or maintain uniformity of prior U.S. Supreme Court decisions; (B) The
proceeding involves Federal Questions of Law of exceptional public importance! (C) The
Lower Federal Court Judges/Panel decisions conflicts with numerous clearly established
decisions of the United States Supreme Court and/or prior decision by other U.S. Circuit
Court of Appeals! (D) and that consideration by the Full Court is therefore necessary to
secure and maintain uniformity of the Court’s prior decisions that have addressed the
same Federal Questions of Law clearly established under law of the case doctrine by this
1

Honorable U.S. Supreme Court; (E) and reversal when Fraud Upon the Court has been
knowingly committed intentionally and in bad faith by Corporate Attorneys currently
litigating pending Nationwide Polypropylene Hernia Mesh Lawsuits(ie, adulterated
medical devise), in order, to obtain wrongful judgment entries for unlawful Corporate
Financial Gain, instead of banning/recalling any/all adulterated medical devises(ie,
Hernia Mesh manufactured/distributed with Polyproplylene).
I/Petitioner declare under penalty of perjury that the foregoing Petitioner’s
Certificate For Rehearing Relief Substantial Circumstances For Controlling Effect is true ‘
and correct. See 28 USC 1746 et seq.

: CT-/- ■?/
Date:

Respectfully Submitted.

CG Respondent
File

PETITIONER IN PRO PER
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

2

No:

20-955
IN THE

SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,

-vs-

ETHICON INC, et al,
RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petitioner’s Pro
Se Motion For Rehearing is in compliance with 3,000 word limitation pursuant to
U.S. Supreme Court Rule 44 et seq.
I declare under penalty of perjury that the foregoing is true and correct.
Date:

Res

"SuBjai
C?

CC: Respondent
File

PETITIONER IN PRO PER
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

